TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    Challenges Continue With Reporting
                  Complete and Accurate Information in the
                 Federal Financial Management Improvement
                            Act Remediation Plan



                                           May 31, 2011

                              Reference Number: 2011-10-041




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  HIGHLIGHTS


CHALLENGES CONTINUE WITH                              The IRS was also unable to provide
REPORTING COMPLETE AND                                supporting documentation for certain
ACCURATE INFORMATION IN THE                           resource estimates for the CADE 2, totaling
FEDERAL FINANCIAL MANAGEMENT                          $697.2 million. Until the IRS updates its
                                                      FFMIA remediation plan with actions related
IMPROVEMENT ACT REMEDIATION
                                                      to the CADE 2 strategy, TIGTA will be
PLAN                                                  unable to fully assess its progress in
                                                      resolving noncompliance with its financial

Highlights                                            management systems.
                                                      The IRS continues to experience difficulty
Final Report issued on May 31, 2011                   reporting complete and accurate resource
                                                      estimates for other actions included in its
Highlights of Reference Number: 2011-10-041           remediation plan. Specifically, TIGTA found four
to the Internal Revenue Service Chief                 nonsecurity action items had no resource
Financial Officer.                                    estimates included when the remediation plan
                                                      was issued. The IRS estimated those resource
IMPACT ON TAXPAYERS                                   costs should be $694,000. Without appropriate
                                                      estimates, the remediation actions could be
The Federal Financial Management
                                                      delayed due to insufficient resources being
Improvement Act (FFMIA) remediation plan is a
                                                      available when needed.
critical part of the Internal Revenue Service’s
(IRS) efforts to bring its financial management       WHAT TIGTA RECOMMENDED
systems into compliance with the FFMIA and to
provide reliable and timely financial data.           TIGTA recommended that the Chief Financial
Overall, the IRS still faces significant challenges   Officer: 1) ensure all necessary actions and
in its efforts to comply with the FFMIA.              costs associated with the implementation of the
Complete and reliable financial information is        CADE 2 are included in future remediation
critical to the IRS’s ability to accurately report    plans; 2) ensure incomplete and/or unsupported
on the results of its operations to both internal     information identified during our review of the
and external stakeholders, including taxpayers.       IRS’s September 30, 2010, FFMIA remediation
                                                      plan is appropriately updated in future plans;
WHY TIGTA DID THE AUDIT                               and 3) reemphasize the need for IRS business
                                                      units to follow standard documentation
The overall objectives of this review were to         requirements.
report to Congress, as required by the FFMIA,
any instances of, and the reasons for, missed         IRS officials agreed with two recommendations.
intermediate target dates established in the          Management stated they have updated the
IRS’s Fiscal Year 2010 FFMIA remediation plan         Fiscal Year 2011 first and second quarter
                                                      remediation plans with the required resource
and to determine whether the IRS has taken
                                                      estimates. In addition, management agreed to
adequate corrective actions on prior audit
                                                      reemphasize with all business owners the need
findings related to the FFMIA remediation plan.       to meet specific documentation standards when
WHAT TIGTA FOUND                                      providing remediation plan estimates.

Our review of the IRS’s September 30, 2010,           However, management disagreed that all
FFMIA remediation plan found that the IRS             necessary actions and costs associated with the
did not include any remediation actions for           implementation of the CADE 2 be included in the
its Customer Account Data Engine 2                    FFMIA remediation plan, but agreed to include
(CADE 2). Because the CADE 2 is the key               the milestones and costs related to updating the
piece of the IRS’s strategy to address its            financial systems to leverage the information
material weakness related to unpaid                   from the CADE 2. TIGTA maintains the
assessments, TIGTA believes these actions             appropriateness of including the CADE 2 costs
should be included in the remediation plan.           in the FFMIA remediation plan.
                                               DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                May 31, 2011


 MEMORANDUM FOR CHIEF FINANCIAL OFFICER

 FROM:                           Michael R. Philips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Challenges Continue With Reporting Complete
                                 and Accurate Information in the Federal Financial Management
                                 Improvement Act Remediation Plan (Audit # 201010022)

 This report presents the results of our review of the Internal Revenue Service’s (IRS) Federal
 Financial Management Improvement Act1 (FFMIA) remediation plan for Fiscal Year 2010. The
 overall objectives of this review were to report to Congress, as required by the FFMIA, any
 instances of, and the reasons for, missed intermediate target dates established in the IRS’s Fiscal
 Year 2010 FFMIA remediation plan and to determine whether the IRS has taken adequate
 corrective actions on prior audit findings related to the FFMIA remediation plan. This review
 was included in the Treasury Inspector General for Tax Administration Fiscal Year 2011 Annual
 Audit Plan and addresses the major management challenge of Leveraging Data to Improve
 Program Effectiveness and Reduce Costs.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me at (202) 622-6510 if you have questions or
 Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
 Organizations) at (202) 622-8500.




 1
     Pub. L. No. 104-208, 110 Stat. 3009.
                        Challenges Continue With Reporting Complete and Accurate
                      Information in the Federal Financial Management Improvement
                                           Act Remediation Plan




                                             Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Intermediate Target Dates Were Extended ..................................................... Page 3
          The Remediation Plan Did Not Contain All the Necessary
          Actions to Address the Unpaid Assessments Material Weakness ................ Page 4
                    Recommendation 1:.......................................................... Page 4

          Resource Information for Some Nonsecurity Action Items
          Is Still a Concern ........................................................................................... Page 5
                    Recommendations 2 and 3: ................................................ Page 6

          Appendix I – Detailed Objectives, Scope, and Methodology ....................... Page 8
          Appendix II – Major Contributors to This Report ........................................ Page 10
          Appendix III – Report Distribution List ....................................................... Page 11
          Appendix IV – Outcome Measures............................................................... Page 12
          Appendix V – Management’s Response to the Draft Report ....................... Page 13
           Challenges Continue With Reporting Complete and Accurate
         Information in the Federal Financial Management Improvement
                              Act Remediation Plan




                        Abbreviations

CADE 2            Customer Account Data Engine 2
CFO               Chief Financial Officer
FFMIA             Federal Financial Management Improvement Act of 1996
FY                Fiscal Year
GAO               Government Accountability Office
IRS               Internal Revenue Service
TIGTA             Treasury Inspector General for Tax Administration
                      Challenges Continue With Reporting Complete and Accurate
                    Information in the Federal Financial Management Improvement
                                         Act Remediation Plan




                                              Background

The Federal Financial Management Improvement Act of
1996 (FFMIA)1 was established to advance Federal                As of November 2010, the
                                                               Government Accountability
financial management by ensuring that Federal financial     Office (GAO) continued to report
management systems provide accurate, reliable, and               that the IRS’s financial
timely financial management information to Government         management systems do not
managers. Further, this disclosure should be done on a             comply with FFMIA
basis that is uniform across the Federal Government from              requirements.
year to year by consistently using professionally accepted
accounting standards. Specifically, FFMIA Section 803 (a) requires each agency to implement and
maintain systems that comply substantially with:
    •    Federal Government financial management systems requirements.
    •    Applicable Federal Government accounting standards.
    •    The United States Government Standard General Ledger at the transaction level.
If an agency’s financial systems do not comply, the agency is required to develop a remediation
plan that describes the resources, remedies, and intermediate target dates for achieving compliance
and to file the plan with the Office of Management and Budget. In addition, FFMIA
Section 804 (b) requires that agency Inspectors General report to Congress instances when an
agency has not met the intermediate target dates established in its remediation plan and the reasons
why those dates were not met. Because the GAO has reported noncompliance with the
requirements of the FFMIA in its audits of the Internal Revenue Service’s (IRS) annual financial
statements, the IRS has been required to prepare and maintain a remediation plan.
In November 2010, the GAO continued to report2 that the IRS’s financial management systems do
not comply with FFMIA requirements. Specifically, the IRS does not post tax-related transactions
in conformance with Federal Government requirements and its records lack adequate traceability for
taxes receivable.3 In addition, the IRS has material weaknesses in its internal controls over both
information security and unpaid assessments. The information security material weakness
compromises the accuracy and availability of the IRS’s financial information and places sensitive
information regarding taxpayers and IRS operations at risk. The unpaid assessments material
weakness impacts the IRS’s ability to effectively manage these assessments. For example, the

1
  Pub. L. No. 104-208, 110 Stat. 3009.
2
  Financial Audit: IRS’s Fiscal Years 2010 and 2009 Financial Statements (GAO-11-142, dated November, 2010).
3
  Federal taxes receivable consist of tax assessments, penalties, and interest not paid or abated which were agreed to
by the taxpayer and the IRS or upheld by the courts.
                                                                                                              Page 1
                      Challenges Continue With Reporting Complete and Accurate
                    Information in the Federal Financial Management Improvement
                                         Act Remediation Plan



GAO reported in November 20094 that the IRS lacks a subsidiary ledger for unpaid assessments that
would allow it to produce reliable and timely financial management information.
Chief Financial Officer (CFO) management stated that the IRS implemented a new accounting
system in January 2010, the Redesign Revenue and Accounting Control System, which will
allow it to post transactions in compliance with Federal Government requirements, support
traceability for revenue transactions, and further assist it in becoming compliant with the
FFMIA.
The IRS informed us that it does not believe it will become compliant with the FFMIA and will
not be able to address the material weakness relating to unpaid assessments until approximately
November 2014, pending successful implementation of the Customer Account Data Engine 2
(CADE 2) strategy. The CADE 2 strategy, as designed, will allow the IRS to modernize the
processes it uses to account for the records of individual taxpayers and create a single overall
system of records. In addition, the time to process and update individual taxpayer account data
would be shortened from a weekly to a daily basis, which will improve the timeliness and
accuracy of this information.
This review was performed in the office of the CFO at the IRS National Headquarters in
Washington, D.C., during the period August 2010 through January 2011. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives. Detailed information on our audit objectives, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in Appendix II.




4
    Financial Audit: IRS’s Fiscal Years 2009 and 2008 Financial Statements (GAO-10-176, dated November 2009).


                                                                                                       Page 2
                  Challenges Continue With Reporting Complete and Accurate
                Information in the Federal Financial Management Improvement
                                     Act Remediation Plan




                                Results of Review
The IRS continues to face challenges with becoming compliant with the FFMIA. Our review of
the IRS’s September 30, 2010, FFMIA remediation plan found that the IRS did not include any
remediation actions for the CADE 2. Because the CADE 2 is the key piece of the IRS’s strategy
to address its material weakness related to unpaid assessments, we believe these actions should
be included in the remediation plan. The IRS was also unable to provide supporting
documentation for certain resource estimates for the CADE 2, totaling $697.2 million. Until the
IRS updates its FFMIA remediation plan with actions related to the CADE 2 strategy, we will be
unable to fully assess its overall progress in resolving its noncompliance.
In addition, the IRS continues to experience difficulty in reporting complete and accurate
resource estimates for several other actions included in its remediation plan. Accurate and
complete resource estimates are necessary to effectively evaluate the commitments needed to
fully implement all of the remediation actions presented in the IRS’s FFMIA remediation plan.
Without the appropriate estimates, the remediation actions could be delayed due to insufficient
resources being available when needed. Complete and accurate information related to the IRS’s
remediation actions is critical to ensuring the IRS will achieve full compliance with the FFMIA.

Intermediate Target Dates Were Extended
During the period October 1, 2009, through September 30, 2010, the IRS reported that it:
   •   Added 12 remediation actions to the 30 open remediation actions in its
       September 30, 2009, remediation plan.
   •   Completed 12 remediation actions, leaving 30 open remediation actions in its
       September 30, 2010, remediation plan.
Each of the 30 open remedial actions had an intermediate target date that extended more than
3 years from the initial determination that IRS financial management systems were not in
substantial compliance with the FFMIA. As required, the IRS obtained concurrence from the
Office of Management and Budget to extend its corrective actions beyond the 3-year limitation.
Our review of the 30 open remediation actions indicated that the IRS did not miss any
intermediate target dates. However, the IRS did extend one intermediate target date for an open
remediation action. Although the IRS had a reasonable explanation for the extended
intermediate target date, delays could further hinder the IRS’s ability to timely resolve the
reported issues that cause its noncompliance with the FFMIA.



                                                                                           Page 3
                    Challenges Continue With Reporting Complete and Accurate
                  Information in the Federal Financial Management Improvement
                                       Act Remediation Plan



Although the IRS declined to fully implement our Fiscal Year (FY) 20085 recommendation to
develop a comprehensive system for tracking findings and recommendations, we found that it
has improved the documentation it maintains regarding the status of findings and
recommendations. In addition, all findings and recommendations made by the GAO were being
addressed in the IRS’s September 30, 2010, remediation plan. Because the IRS has improved its
recordkeeping for the FFMIA remediation plan, we are not making an additional
recommendation on this issue.

The Remediation Plan Did Not Contain All the Necessary Actions to
Address the Unpaid Assessments Material Weakness
The IRS continues to have a material weakness over unpaid assessments. The IRS plans to close
this material weakness by November 30, 2014, pending successful implementation of the
CADE 2. However, the IRS’s remediation plan does not contain any action items or costs
associated with this system. IRS management informed us that, in their opinion, including
actions and milestones pertaining to how financial systems (primarily the Custodial Detailed
Database system) will leverage the information in the CADE 2 to improve the IRS’s financial
reporting is sufficient to meet the reporting requirements of the FFMIA.
However, because this system is presented as the solution to closing a significant material
weakness, its progress and cost should be reflected in the remediation plan. In July 2009, the
IRS estimated the projected nonrecurring cost for this project to be $377 million and the
recurring cost to be $320.2 million for FYs 2009 through 2014.
Completion of the CADE 2 is an integral part of the IRS’s plan to improve the timeliness and
accuracy of its individual taxpayer account data. Until the IRS updates its FFMIA remediation
plan with actions related to the CADE 2 strategy, we will be unable to fully assess its overall
progress in resolving its noncompliance.

Recommendation
Recommendation 1: The CFO should ensure that all necessary actions and costs associated
with the implementation of the CADE 2 are included in future remediation plans.
        Management’s Response: Management disagreed that all actions and costs
        associated with the implementation of the CADE 2 should be included in the FFMIA
        Remediation Plan. Management stated the FFMIA remediation plan was created to
        address the actions required for IRS financial systems and believes that the CADE 2 is


5
 The Internal Revenue Service’s Federal Financial Management Improvement Act Remediation Plan As of
December 31, 2008 (Reference Number 2009-10-094, dated July 30, 2009).


                                                                                                      Page 4
                    Challenges Continue With Reporting Complete and Accurate
                  Information in the Federal Financial Management Improvement
                                       Act Remediation Plan



        not a financial system, but a Business System Modernization project used to modernize
        the IRS tax system for individual taxpayer account data. Management also stated that the
        IRS currently provides the Treasury Inspector General for Tax Administration (TIGTA)
        with quarterly briefings and ongoing detailed information including milestones and costs
        on all CADE 2 activities.
        Management agreed to enter into the remediation plan all milestones and costs when the
        financial systems have been updated to leverage the information from CADE 2, as
        appropriate. Due to the long-term FY 2011 Continuing Resolution, management stated
        that funding is not currently available for the CADE 2 activities and, as a result, there are
        no actions to report on at this time.
        Office of Audit Comment: The IRS informed the TIGTA in a prior review that it
        does not believe it will become compliant with the FFMIA and address the material
        weakness relating to unpaid assessments until approximately November 2014, pending
        successful implementation of the CADE 2 strategy. The CADE 2 strategy, as designed,
        will allow the IRS to modernize the processes it uses to account for the financial records
        of individual taxpayers, create a single overall system of records, and improve the
        timeliness and accuracy of this information. As such, we believe including key actions
        and costs associated with the CADE 2 in the FFMIA remediation plan will increase the
        likelihood of the IRS addressing the material weakness relating to unpaid assessments
        and enable the IRS and external stakeholders to better monitor the IRS’s progress in
        becoming compliant with the FFMIA. In addition, while the IRS disagreed with
        including all actions and costs associated with the CADE 2 in the FFMIA remediation
        plan, IRS management agreed to include the milestones and costs related to updating the
        financial systems to leverage the information from the CADE 2. We believe the IRS
        should report this information now and not wait until the IRS begins to update its
        financial systems when CADE 2 information is available.

Resource Information for Some Nonsecurity Action Items Is Still a
Concern
Although the documentation maintained by the IRS regarding security action item resource
estimates has improved, we believe that improvements are needed for nonsecurity actions. In
three of our last five FFMIA annual reports,6 we found that remediation plans had security action


6
 The Internal Revenue Service’s Federal Financial Management Improvement Act Remediation Plan As of
December 31, 2006 (Reference Number 2007-10-077, dated May 21, 2007); The Internal Revenue Service’s Federal
Financial Management Improvement Act Remediation Plan As of December 31, 2008 (Reference
Number 2009-10-094, dated July 30, 2009); The Internal Revenue Service’s Federal Financial Management
Improvement Act Remediation Plan As of September 30, 2009 (Reference Number 2010-10-065, dated
June 4, 2010).
                                                                                                    Page 5
                  Challenges Continue With Reporting Complete and Accurate
                Information in the Federal Financial Management Improvement
                                     Act Remediation Plan



item entries that were missing. In each report, we made recommendations that the CFO needed
to be more vigilant when reviewing the plans before submission. In response to our FY 2009
report recommendation, the IRS agreed that it would develop standardized guidance that requires
more specific documentation standards for security actions in its remediation plan. Our review
indicates that supporting documentation from the Chief Technology Officer on security resource
estimates has significantly improved.
However, documentation for nonsecurity items remains a concern. In our review of the
September 30, 2010, FFMIA remediation plan, we found that some nonsecurity items did not
contain all required information. Specifically, we found four nonsecurity action items had no
resource estimates included when the remediation plan was issued. After we brought this to IRS
management’s attention, they informed us that: 1) the costs associated with these resource
estimates should be $694,000, and 2) they plan to include this information in future remediation
plans.
Without appropriate and verifiable cost estimates for all action items, some remediation plan
action items could be delayed due to insufficient resources being available when needed.
Outdated and/or inaccurate cost information also affects IRS management’s ability to timely and
reliably estimate accurate completion dates for remediation actions. Until the IRS develops and
completes the necessary remediation plan actions to address all of the GAO’s open findings and
recommendations, the IRS will continue to be noncompliant with the FFMIA.

Recommendations
The CFO should:
Recommendation 2: Ensure that incomplete and unsupported information identified during
our review of the IRS’s September 30, 2010, FFMIA remediation plan is appropriately updated
in future remediation plans.
       Management’s Response: Management agreed and has updated the FY 2011 first
       and second quarter remediation plans with the required resource estimates.
Recommendation 3: Reemphasize the need for IRS business units responsible for
nonsecurity estimates to follow standard FFMIA documentation requirements. The CFO should
ensure the following minimum information is provided by the business units: 1) a breakdown
and explanation of costs such as hardware, software, and contractor support that are included in
the estimate; 2) a general description of how the estimate was developed; and 3) the date the
estimate was prepared and last updated.




                                                                                          Page 6
          Challenges Continue With Reporting Complete and Accurate
        Information in the Federal Financial Management Improvement
                             Act Remediation Plan



Management’s Response: Management agreed with this recommendation and stated
they currently provide guidance to the business owners with planned actions in the IRS
remediation plan to address the FFMIA Remediation Plan Review and Reporting
Requirements. This standardized guidance requires that business owners meet specific
documentation standards in providing the remediation plan estimates, including a
breakdown and explanation of estimated costs for hardware, software, and contractor
support; a description of the estimation methodology; and the dates indicating when the
last estimates were calculated. Management agreed to reemphasize adherence to this
guidance with all business owners during the third quarter.




                                                                                Page 7
                  Challenges Continue With Reporting Complete and Accurate
                Information in the Federal Financial Management Improvement
                                     Act Remediation Plan



                                                                                   Appendix I

       Detailed Objectives, Scope, and Methodology

The overall objectives of this review were to report to Congress, as required by the FFMIA, any
instances of, and the reasons for, missed intermediate target dates established in the IRS’s
FY 2010 FFMIA remediation plan and to determine whether the IRS has taken adequate
corrective actions on prior audit findings related to the FFMIA remediation plan. To accomplish
our objective, we:
I.     Gained an understanding of the requirements of the FFMIA, including Office of
       Management and Budget and Department of the Treasury guidance for compliance with
       the Act.
II.    Determined whether the IRS’s remediation plan was consistent with GAO
       recommendations from prior IRS financial audits and related financial management
       reports.
III.   Determined whether: 1) the IRS missed any intermediate target dates established in its
       remediation plan, 2) intermediate target dates were extended without sufficient
       documentation to support the revised dates, and 3) proper approval was obtained for
       remedial actions extending more than 3 years.
       A. Verified that all remedial actions have intermediate target dates established.
       B. Identified instances when the IRS had not met the intermediate target dates.
       C. Determined the reason the IRS did not meet the intermediate target date if any missed
          dates were identified.
       D. Compared the September 30, 2010, IRS FFMIA remediation plan to the FY 2009
          plan to identify intermediate target dates that had changed since the previous TIGTA
          review, and obtained and analyzed documentation supporting any changes.
       E. Identified any intermediate target dates extending more than 3 years since the
          recommendation was reported.
       F. Verified that Office of Management and Budget approval was obtained for any
          instances where the intermediate target dates extended more than 3 years.
IV.    Determined whether: 1) the IRS remediation plan had established resource needs for
       remedial actions, and 2) the resources presented were consistent with supporting
       documentation.
       A. Verified that resource requirements were identified for all remedial actions.
                                                                                           Page 8
                  Challenges Continue With Reporting Complete and Accurate
                Information in the Federal Financial Management Improvement
                                     Act Remediation Plan



       B. Obtained budget information from IRS management.
       C. Traced remediation plan resources to budget information.
       D. Interviewed the functional financial plan managers associated with all significant cost
          estimates.
       E. Determined the reason the resource needs did not match budget information for any
          differences identified.
V.     Determined whether the IRS had taken adequate corrective actions on prior reported audit
       findings related to the FFMIA remediation plan.
       A. Identified prior open TIGTA audit findings and corresponding management responses
          concerning corrective actions that should have been completed by the time of our
          audit.
       B. Confirmed through discussions/observations whether actions had been completed.
       C. Evaluated the actions taken by the IRS to improve its tracking of open FFMIA
          material weaknesses.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objectives: the IRS’s policies, procedures, and
practices for tracking planned remediation actions due to identified material weaknesses
impacting its financial management systems. We evaluated these controls by interviewing
management and reviewing applicable documentation.




                                                                                          Page 9
                 Challenges Continue With Reporting Complete and Accurate
               Information in the Federal Financial Management Improvement
                                    Act Remediation Plan



                                                                             Appendix II

                 Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Jeffrey M. Jones, Director
Joseph F. Cooney, Audit Manager
Mildred Rita Woody, Lead Auditor
Robert Beel, Senior Auditor
Chinita M. Coates, Auditor
Rashme Sawhney, Auditor




                                                                                     Page 10
                 Challenges Continue With Reporting Complete and Accurate
               Information in the Federal Financial Management Improvement
                                    Act Remediation Plan



                                                                            Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Associate Chief Financial Officer for Corporate Planning and Internal Controls OS:CFO:CPIC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief Financial Officer OS:CFO




                                                                                    Page 11
                  Challenges Continue With Reporting Complete and Accurate
                Information in the Federal Financial Management Improvement
                                     Act Remediation Plan



                                                                                 Appendix IV

                               Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Reliability of Information – Actual; $697.2 million. This measure represents the difference
    between the resource estimates reported in the IRS’s September 30, 2010, FFMIA
    remediation plan and the supporting documentation provided by the IRS (see page 4).

Methodology Used to Measure the Reported Benefit:
To determine whether the IRS reliably reported estimated resources in its September 30, 2010,
FFMIA remediation plan, we compared the estimated resources to the supporting documentation
and interviewed selected IRS personnel. We found that there were no resource estimates
reported for the CADE 2 system. In July 2009, the IRS estimated the projected nonrecurring
cost for this project to be $377 million and the recurring cost to be $320.2 million for FYs 2009
through 2014.
The total measure was calculated by adding the nonrecurring and the recurring costs together
($377 million + $320.2 million = $697.2 million).

Type and Value of Outcome Measure:
•   Reliability of Information – Actual; $694,000. This measure represents the difference
    between the resource estimates reported in the IRS’s September 30, 2010, FFMIA
    remediation plan and the supporting documnetaion provided by the IRS (see page 5).

Methodology Used to Measure the Reported Benefit:
To determine whether the IRS reliably reported estimated resources in its September 30, 2010,
FFMIA remediation plan, we compared the estimated resources to the supporting documentation
and interviewed selected IRS personnel. We found that some nonsecurity items did not contain
all required information. Specifically, four nonsecurity action items had no resource estimates
included when the remediation plan was issued. After we brought this to IRS management’s
attention, they informed us that the costs associated with these resource estimates should be
$694,000.


                                                                                            Page 12
   Challenges Continue With Reporting Complete and Accurate
 Information in the Federal Financial Management Improvement
                      Act Remediation Plan



                                                 Appendix V

Management’s Response to the Draft Report




                                                       Page 13
  Challenges Continue With Reporting Complete and Accurate
Information in the Federal Financial Management Improvement
                     Act Remediation Plan




                                                      Page 11Page 14
  Challenges Continue With Reporting Complete and Accurate
Information in the Federal Financial Management Improvement
                     Act Remediation Plan




                                                      Page 11Page 15
